   Department of Health and Human Services
                      OFFICE OF
                 INSPECTOR GENERAL


 THE FEDERAL DEMOCRATIC REPUBLIC
  OF ETHIOPIA, MINISTRY OF HEALTH,
DID NOT ALWAYS MANAGE PRESIDENT’S
 EMERGENCY PLAN FOR AIDS RELIEF
  FUNDS OR MEET PROGRAM GOALS IN
      ACCORDANCE WITH AWARD
           REQUIREMENTS

     Inquiries about this report may be addressed to the Office of Public Affairs at
                              Public.Affairs@oig.hhs.gov.




                                                      Gloria L. Jarmon
                                                   Deputy Inspector General
                                                      for Audit Services

                                                        September 2014
                                                         A-04-13-04015
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY

 The Federal Democratic Republic of Ethiopia, Ministry of Health, did not always manage
 the President’s Emergency Plan for AIDS Relief funds or meet program goals in
 accordance with award requirements. Of the $717,823 in judgmentally selected
 expenditures that we reviewed, $294,654 was not allowable.

WHY WE DID THIS REVIEW

The Tom Lantos and Henry J. Hyde United States Global Leadership Against HIV/AIDS,
Tuberculosis, and Malaria Reauthorization Act of 2008 (P.L. No. 110-293) (the Act) authorized
$48 billion in funding for the President’s Emergency Plan for AIDS Relief (PEPFAR) program
for the 5-year period beginning October 1, 2008, to assist foreign countries in combating
HIV/AIDS, tuberculosis, and malaria.

The Act requires the Department of Health and Human Services (HHS), Office of Inspector
General (OIG), among others, to provide oversight of the programs implemented under the Act,
including PEPFAR. To meet this requirement, HHS OIG has conducted a series of audits of
organizations receiving PEPFAR funds from HHS, Centers for Disease Control and Prevention
(CDC). We selected the Federal Democratic Republic of Ethiopia, Ministry of Health (the
Ministry), for review.

The objective of our audit was to determine whether the Ministry managed PEPFAR funds and
met program goals in accordance with the award requirements.

BACKGROUND

Through a 5-year cooperative agreement (grant number 5U2GPS002087), CDC awarded
PEPFAR funds totaling $4,447,034 to the Ministry for the budget period September 30, 2011,
through September 29, 2012.

The Ministry’s mission is to reduce morbidity, mortality, and disability, and to improve the
health status of the Ethiopian people through providing a comprehensive package of preventive,
promotive, rehabilitative, and curative health services via a decentralized and democratized
health system in collaboration with all stakeholders. The Ministry’s overall goal for the
cooperative agreement is to improve maternal health, reduce child mortality, and combat
HIV/AIDS, malaria, tuberculosis, and other diseases.

WHAT WE FOUND

The Ministry did not always manage PEPFAR funds or meet program goals in accordance with
award requirements. With respect to financial management, specifically financial transaction
testing, $423,169 of the $717,823 reviewed was allowable, but $294,654 was unallowable. Of
the 30 financial transactions tested:

    •   1 transaction totaling $1,287 was allowable;

Audit of the Ethiopian Ministry of Health PEPFAR Funds (A-04-13-04015)                           i
    •   21 transactions totaling $87,616 were unallowable because funds were for restricted cost
        categories, expenditures not adequately supported, or expenditures not related to the
        PEPFAR cooperative agreement; and

    •   8 transactions totaling $628,920 were partially unallowable because funds were for
        restricted cost categories, expenditures not related to the PEPFAR cooperative agreement,
        or a no-bid contract ($421,882 was allowable and $207,038 was not).

Additionally, the Ministry:

    •   did not accurately report PEPFAR expenditures and cash disbursements for this
        cooperative agreement on its Federal financial report (FFR) submitted to CDC,

    •   withdrew $1,905,957 in restricted funds from the Payment Management System,

    •   advanced funds to government entities for activities that were not related to the PEPFAR
        cooperative agreement or were restricted by CDC in the Notice of Award,

    •   used an undetermined amount of PEPFAR funds to pay potentially unallowable value-
        added taxes (VATs) on purchases, and

    •   did not submit its annual financial audit report to the National External Audit Review
        Center in accordance with the award requirements.

Our program management review showed that the 20 accomplishments included in the
Ministry’s annual progress report were all related to the goals of the cooperative agreement. Of
these 20 accomplishments, documentation supported 9, partially supported 8, and did not
support 3.

These errors occurred because the Ministry did not have adequate policies and procedures.

WHAT WE RECOMMEND

We recommend that the Ministry:

    •   refund to CDC $294,654 in unallowable expenditures;

    •   submit an amended FFR for the budget period of the cooperative agreement that we
        reviewed;

    •   work with CDC to resolve whether VAT was an allowable expenditure under the
        cooperative agreement; and

    •   develop and implement policies and procedures for:



Audit of the Ethiopian Ministry of Health PEPFAR Funds (A-04-13-04015)                             ii
            o obtaining approval from CDC to release funds restricted by the Notice of Award
              prior to withdrawing or disbursing funds,

            o maintaining adequate supporting documentation for expenditures and cash
              advances of Federal funds and accomplishments included in the progress report,

            o advancing funds only for activities related to the cooperative agreement,

            o accounting for VAT paid and seeking reimbursement from the Ethiopian
              Government,

            o expending cooperative agreement funds only for allowed activities,

            o obtaining contract bids when required,

            o reconciling FFRs to the accounting records before submission, and

            o submitting its annual financial audit report in a timely manner to the applicable
              United States agency.

FEDERAL DEMOCRATIC REPUBLIC OF ETHIOPIA, MINISTRY
OF HEALTH, COMMENTS AND OUR RESPONSE

In comments on our draft report, Ministry officials did not concur with our first recommendation,
partially concurred with our last recommendation, and fully concurred with our remaining
recommendations. They also described corrective actions they had taken or planned to take to
address the recommendations, such as developing Ministry policies and written procedures.

We reviewed the explanations in the Ministry’s comments and the additional documentation
provided with its comments. The explanations and additional documentation did not cause us to
change any of our findings or recommendations. Therefore, we continue to recommend that the
Ministry refund $294,654 in unallowable expenditures.




Audit of the Ethiopian Ministry of Health PEPFAR Funds (A-04-13-04015)                            iii
                                                     TABLE OF CONTENTS

INTRODUCTION ........................................................................................................................ 1

           Why We Did This Review ................................................................................................ 1

           Objective ........................................................................................................................... 1

           Background ....................................................................................................................... 1
                 Centers for Disease Control and Prevention ......................................................... 1
                 Application of Federal Regulations ...................................................................... 2
                 Federal Democratic Republic of Ethiopia, Ministry of Health ............................. 2

           How We Conducted This Review..................................................................................... 2

FINDINGS .................................................................................................................................... 3

           Financial Management ...................................................................................................... 4
                  Financial Transactions .......................................................................................... 4
                  Federal Financial Report ....................................................................................... 5
                  Withdrawal of Restricted Funds ........................................................................... 6
                  Cash Advances ...................................................................................................... 6
                  Expenditures for Value-Added Tax Potentially Unallowable .............................. 7

           Program Management ....................................................................................................... 7
                 Progress Report Included Unsupported Accomplishments .................................. 7

           Non-Federal Audit Reports ............................................................................................... 8

           Inadequate Policies and Procedures .................................................................................. 8

RECOMMENDATIONS .............................................................................................................. 9

FEDERAL DEMOCRATIC REPUBLIC OF ETHIOPIA, MINISTRY OF
HEALTH, COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE................................................................................................................................. 10

           Ministry of Health Comments ........................................................................................ 10

           Office of Inspector General Response ............................................................................ 10

APPENDIXES

           A: Related Office of Inspector General Reports ............................................................ 12

           B: Audit Scope and Methodology.................................................................................. 14

Audit of the Ethiopian Ministry of Health PEPFAR Funds (A-04-13-04015)                                                                               iv
        C: Federal Requirements ............................................................................................... 16

        D: Sample Results……………………………………………………………………..19

        E: Federal Democratic Republic of Ethiopia,
              Ministry of Health, Comments ........................................................................... 20




Audit of the Ethiopian Ministry of Health PEPFAR Funds (A-04-13-04015)                                                               v
                                                 INTRODUCTION

WHY WE DID THIS REVIEW

The Tom Lantos and Henry J. Hyde United States Global Leadership Against HIV/AIDS,
Tuberculosis, and Malaria Reauthorization Act of 2008 (P.L. No. 110-293) (the Act) authorized
$48 billion in funding for the President’s Emergency Plan for AIDS Relief (PEPFAR) program
for the 5-year period beginning October 1, 2008, to assist foreign countries in combating
HIV/AIDS, tuberculosis, and malaria.

The Act requires the Department of Health and Human Services (HHS), Office of Inspector
General (OIG), among others, to provide oversight of the programs implemented under the Act,
including PEPFAR. To meet this requirement, HHS OIG has conducted a series of audits 1 of
organizations receiving PEPFAR funds from HHS (recipients), Centers for Disease Control and
Prevention (CDC).

We selected the Federal Democratic Republic of Ethiopia, Ministry of Health (the Ministry), for
review.

OBJECTIVE

Our objective was to determine whether the Ministry managed PEPFAR funds and met program
goals in accordance with the award requirements.

BACKGROUND

Centers for Disease Control and Prevention

The Act gives CDC a leadership role in several key areas of research and evaluation in
implementing HIV/AIDS programs, including program monitoring, impact evaluation, and
operations research. Through its Global HIV/AIDS Program, CDC implemented PEPFAR,
working with ministries of health and other public health partners to combat HIV/AIDS by
strengthening health systems and building sustainable HIV/AIDS programs in more than 75
countries in Africa, Asia, Central and South America, and the Caribbean.

For fiscal year (FY) 2011, CDC obligated 2 PEPFAR funds totaling $1.3 billion. CDC awarded
these PEPFAR funds through cooperative agreements, which it uses in lieu of grants when it




1
    Appendix A contains a list of related OIG reports.
2
 “Obligated” funds are amounts for which the recipient has made binding commitments for orders placed for
property and services, contracts and subawards, and similar transactions during a funding period that will require
payment during the same or a future period per HHS’s Grants Policy Directives 1.02. HHS internal departmental
grants guidance is in the process of being updated in a new Grants Policy Administration Manual.



Audit of the Ethiopian Ministry of Health PEPFAR Funds (A-04-13-04015)                                               1
anticipates the Federal Government’s substantial involvement with recipients in accomplishing
the objectives of the agreements. 3 In response to a Funding Opportunity Announcement (FOA) 4
CDC awarded the Ministry grant number 5U2GPS002087 through a cooperative agreement for
the project period September 30, 2011, through September 29, 2012.

Application of Federal Regulations

The grant administration rules in 45 CFR part 92 apply to State, local, and tribal governments.
The grant administration rules in 45 CFR part 74 apply to nonprofit organizations, hospitals,
institutions of higher education, and commercial organizations. The HHS Grants Policy
Statement (GPS), which provides general terms and conditions and HHS policies for grantees
and others interested in the administration of HHS grants, specifies that foreign grantees must
comply with the requirements of 45 CFR parts 74 or 92, as applicable to the type of foreign
organization (GPS section II-113). Thus, the rules in 45 CFR part 92 apply to a foreign
governmental entity.

Federal Democratic Republic of Ethiopia, Ministry of Health

The Ministry’s mission is to reduce morbidity, mortality, and disability, and to improve the
health status of the Ethiopian people through providing a comprehensive package of preventive,
promotive, rehabilitative, and curative health services via a decentralized and democratized
health system in collaboration with all stakeholders. The Ministry’s overall goal for the
cooperative agreement is to improve maternal health, reduce child mortality, and combat
HIV/AIDS, malaria, tuberculosis, and other diseases.

HOW WE CONDUCTED THIS REVIEW

Our audit covered the budget period from September 30, 2011, through September 29, 2012.
This budget period was the fourth year of a 5-year cooperative agreement. During the budget
period under review, CDC awarded the Ministry $4,447,034.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix B contains the details of our scope and methodology, and Appendix C contains
Federal requirements.



3
    The regulations that apply to Federal grants also apply to cooperative agreements.
4
 FOA Number CDC-RFA-PS09-9104 is entitled Improving HIV/AIDS Prevention and Control Activities in the
Federal Democratic Republic of Ethiopia under the President's Emergency Plan for AIDS Relief (PEPFAR).



Audit of the Ethiopian Ministry of Health PEPFAR Funds (A-04-13-04015)                                   2
                                                 FINDINGS

The Ministry did not always manage PEPFAR funds or meet program goals in accordance with
award requirements. With respect to financial management, specifically financial transaction
testing, $423,169 of the $717,823 reviewed was allowable, but $294,654 was unallowable. Of
the 30 financial transactions tested:

    •   1 transaction totaling $1,287 was allowable;

    •   21 transactions totaling $87,616 were unallowable because funds were for restricted cost
        categories, expenditures not adequately supported, or expenditures not related to the
        PEPFAR cooperative agreement; and

    •   8 transactions totaling $628,920 were partially unallowable because funds were for
        restricted cost categories, expenditures not related to the PEPFAR cooperative agreement,
        or a no-bid contract ($421,882 was allowable and $207,038 was not).

Additionally, the Ministry:

    •   did not accurately report PEPFAR expenditures and cash disbursements for this
        cooperative agreement on its Federal financial report (FFR) submitted to CDC,

    •   withdrew $1,905,957 in restricted funds from the Payment Management System, 5

    •   advanced funds to government entities for activities that were not related to the PEPFAR
        cooperative agreement or were restricted by CDC in the Notice of Award (NOA),

    •   used an undetermined amount of PEPFAR funds to pay potentially unallowable value-
        added taxes (VATs) on purchases, and

    •   did not submit its annual financial audit report to the National External Audit Review
        Center in accordance with the award requirements.

Our program management review showed that the 20 accomplishments included in the
Ministry’s annual progress report were all related to the goals of the cooperative agreement. Of
these 20 accomplishments, documentation supported 9, partially supported 8, and did not
support 3.

These errors occurred because the Ministry did not have adequate policies and procedures.




5
 The Payment Management System is a full-service centralized grants payment and cash management system that
provides tools to both awarding agencies and grant recipients to manage grant payment requests, drawdowns, and
disbursement reporting activities.



Audit of the Ethiopian Ministry of Health PEPFAR Funds (A-04-13-04015)                                           3
FINANCIAL MANAGEMENT

Financial Transactions

The HHS Grants Policy Statement (GPS) (section II-49) states that prior approval is required for
deviation from the award terms and conditions, including undertaking any activities disapproved
or restricted as a condition of the award.

The NOA restricted several project activities and states in note 13 that “prior approval is
required” to lift funding restrictions. Section IV ... Special Terms and Conditions, of the NOA,
dated August 25, 2011, incorporated the FOA and the application (including the detailed budget)
as part of this award by reference.

Accounting records must be supported by source documentation such as canceled checks, paid
bills, payrolls, time and attendance records, and contracts and subgrant award documents
(45 CFR § 92.20(b)(6)).

Effective control and accountability must be maintained for all grants, and grantees must
adequately safeguard all property and cash to assure that it is used solely for authorized purposes
(45 CFR § 92.20(b)(3)).

With respect to procurement, all transactions will be conducted in a manner providing full and
open competition. Specifically, grantees will have written selection procedures to ensure that all
solicitations identify the requirements that must be fulfilled, as well as all other factors to be used
in evaluating bids or proposals (45 CFR § 92.36(c)(l) and § 92.36(c)(3)(ii)). 6

Of the 30 transactions totaling $717,823 that we reviewed, 1 transaction totaling $1,287 was
allowable, 21 transactions totaling $87,616 were unallowable, and 8 transactions totaling
$628,920 were partially unallowable ($421,882 was allowable and $207,038 was not). Of the 21
unallowable and 8 partially unallowable transactions, some contained more than 1 error. The
table below summarizes the number of unallowable transactions associated with each category of
error. Appendix D contains detailed sample results.

                                Table: Unallowable Financial Transactions*

                                                                                             Number of
                                      Category                                            Unallowable Items
    Restricted funds                                                                             26
    Supporting documentation                                                                         9
    Not related to the cooperative agreement                                                         2
    No-bid contract                                                                                  1
     * The total number of unallowable items exceeds 29 because some items contained more than 1 error.


6
    Although there are exceptions to open competition in 45 CFR § 92.36(d)(4)(i), none apply to the related finding.



Audit of the Ethiopian Ministry of Health PEPFAR Funds (A-04-13-04015)                                                 4
Restricted Funds

According to the NOA dated August 25, 2011, CDC restricted funds in several cost categories
totaling $4,352,991. For 26 transactions, the Ministry spent funds on activities restricted by the
NOA. For example, the Ministry expended funds related to the National Health Management
Information System, HIV testing and counseling, and parliamentary training activities that CDC
had restricted.

Supporting Documentation

For nine transactions, the Ministry was unable to provide adequate documentation to support the
transactions. To meet its PEPFAR program goals, the Ministry advanced grant funds to local
government entities. The entities reported their expenditures of PEPFAR funds to the Ministry
using a Statement of Expenditure. The statement contained expenditures listed by cost
categories, such as stationery, fuel, per diem, refreshments, etc.; however, the Ministry could not
provide any other documentation to support the transactions.

Not Related to the Cooperative Agreement

For two transactions, the Ministry made expenditures for activities not related to the PEPFAR
cooperative agreement. For one transaction, the Ministry spent PEPFAR funds on travel in
support of its Blood Safety Cooperative Agreement for staff to receive training on donated dental
equipment. The Ministry attributed the unallowable travel cost to a recording error. For the
other transaction, the Ministry used grant funds to rent a facility to conduct gender assertiveness
training in support of its Millennium Development Goals and World Health Organization
grants. The Ministry approved payment of the rental cost because it had previously used funds
from these grants to conduct PEPFAR activities. The Ministry said that it believed the
reimbursement of funds borrowed from another grant was acceptable.

No-Bid Contract

One transaction was for a contract to broadcast information on tuberculosis prevention. The
Ministry contracted with a broadcast company without obtaining bids from any other companies.
Ministry officials said that they did not obtain bids because the broadcast company with which
they contracted provided the widest dissemination of information.

Federal Financial Report

Grantees must maintain records that adequately identify the source and application of funds for
financially assisted activities (45 CFR § 92.20(b)(2)), and their financial management reporting
system must be able to demonstrate an accurate, current, and complete disclosure of the financial
results of grant-funded activities (45 CFR § 92.20(b)(1)).

The Ministry submitted an FFR to CDC that did not agree with the Ministry’s accounting
records. The Ministry did not reconcile its general ledger to the report it used to create the FFR.




Audit of the Ethiopian Ministry of Health PEPFAR Funds (A-04-13-04015)                                5
As a result, the Ministry underreported both expenditures and cash disbursements on the FFR for
the cooperative agreement by $7,625 and $2,097, respectively.

Withdrawal of Restricted Funds

The GPS (section II-49) states that prior approval is required for deviation from the award terms
and conditions, including undertaking any activities disapproved or restricted as a condition of
the award.

According to the NOAs that CDC issued, only $94,043 of funding was unrestricted and available
for the Ministry’s use prior to May 2012. During March 2012, the Ministry withdrew $2 million
from the Payment Management System. Of that, $1,905,957 was restricted at the time of
withdrawal. According to Ministry officials, the Ministry withdrew the restricted funds because
it mistakenly thought that CDC had lifted all restrictions. At the completion of our fieldwork in
September 2013, nearly a year after the end of our audit period, $1,782,260 remained restricted.

Cash Advances

The GPS (section II-49) states that prior approval is required for deviation from the award terms
and conditions, including undertaking any activities disapproved or restricted as a condition of
the award.

The NOA restricted several project activities and stated in note 13 that “prior approval is
required” to lift funding restrictions. Section IV ... Special Terms and Conditions, of the NOA,
dated August 25, 2011, incorporated the FOA and the application (including the detailed budget)
as part of this award by reference.

To help meet its PEPFAR program goals, the Ministry made cash advances to local government
entities. In addition to our financial transactions review, we reviewed 11 of these cash advances
totaling $2,186,885 that the Ministry made to local government entities. Of these 11 advances, 2
that totaled $240,895 were for allowable activities and 9 that totaled $1,945,990 were not. In the
NOA dated August 25, 2011, CDC restricted funds in several cost categories. These restricted
funds totaled $4,352,991. The Ministry made seven cash advances for activities restricted by the
NOA related to the National Health Management Information System, HIV testing and
counseling, and health worker experience sharing.

The Ministry also made two cash advances for activities not related to the PEPFAR cooperative
agreement. In one case, the Ministry advanced PEPFAR funds to the Ethiopian Health and
Nutrition Research Institute in support of its Influenza Cooperative Agreement. In the other, the
Ministry advanced PEPFAR funds to the Ethiopian Pharmaceuticals Funds and Supply Agency
(PFSA) for the purchase of eight x ray machines. However, the Ministry had previously
advanced PEPFAR funds to PFSA for the purchase of the machines. At the completion of our
fieldwork in September 2013, PFSA had not cashed the check for the second advance, nor had it
returned the second advance to the Ministry. Ministry officials attributed these cash advance
mistakes to accounting errors.




Audit of the Ethiopian Ministry of Health PEPFAR Funds (A-04-13-04015)                              6
Expenditures for Value-Added Tax Potentially Unallowable

The GPS (section II-114) states that certain costs, including VAT, are unallowable under both
foreign grants and domestic grants with foreign components. Also, bilateral agreements with
foreign governments may stipulate an exemption from paying the VAT for those contractors and
recipients that are funded by the United States and providing foreign aid. 7 During the audit
period, CDC Ethiopia had established a process for recipients to follow to obtain VAT
reimbursement from the Ethiopian Revenue and Customs Authority.

Although we identified $57,881 of VAT associated with our judgmentally selected expenditure
transactions, we were unable to determine the total amount of VAT the Ministry paid during our
audit period because the Ministry did not maintain an accurate record of VAT transactions. The
Ministry paid VAT directly to suppliers for purchases under 5,000 Ethiopian birr but did not
track or account for these VAT payments. The Ministry withheld and recorded VAT
amounts over 5,000 Ethiopian birr in a VAT payable account and would periodically remit this
to the Government. However, the Ministry did not consistently record VAT amounts to the
payable account.

CDC Ethiopia provided training to recipients and assisted multiple recipients in requesting VAT
refunds. However, the Ministry did not participate in the training and did not seek a refund for
VAT from the Ethiopian Government. The Ministry said that it did not seek a VAT refund
because it was unaware of the refund process that CDC Ethiopia had established.

PROGRAM MANAGEMENT

Progress Report Included Unsupported Accomplishments

Progress reports should contain a comparison of actual accomplishments with the goals
established for the period, and the outputs of the programs should be quantified (45 CFR
§ 92.40(b)(2)).

Recipients are required to retain financial records, supporting documents, statistical records, and
all other records “reasonably considered as pertinent to an award” for 3 years from the
submission date of the final expenditure report for the funding period (45 CFR § 92.42).
Additionally, the FOA states that the University should have measurable outcomes that are in
alignment with the goals of PEPFAR activities that have been implemented. 8
All 20 accomplishments in the Ministry’s progress report were related to the goals of the
cooperative agreement. Of these 20 accomplishments, 9 were fully supported, 8 were partially
supported, and 3 were not supported.


7
 HHS is currently reexamining the applicability of the GPS provision; thus, we are not recommending disallowance
of these expenditures. Instead, we recommend that the Ministry work with CDC to resolve the issue.
8
 Section IV of the NOA – Special Terms and Conditions – makes the requirement found in the FOA part of the
award by reference.



Audit of the Ethiopian Ministry of Health PEPFAR Funds (A-04-13-04015)                                         7
The Ministry provided documentation to partially support eight accomplishments that related to
activities such as employees’ salaries from the All Africa Leprosy Education Rehabilitation
Training Research Center, the number of people who attended trainings, and the social
mobilization and advocacy of the health extension program that two regions conducted.
Additionally, the Ministry provided support for a greater number of printed copies of Health
Management Information System health cards than was reported in the progress report.

For the three remaining transactions, the Ministry was unable to provide any documentation to
support the reported accomplishments. Specifically, the Ministry could not provide
documentation to support the implementation of backup generators, the number of supervisors
that it reported as trained, and an extended broadcasting agreement that it reported in the
progress report.

The Ministry had many goals for which it was unable to report accomplishments in the progress
report because most of the associated activities were contingent on funds that CDC had
restricted.

Because the Ministry’s documentation was either insufficient or inaccurate for 11
accomplishments in the progress report, CDC did not have adequate information to focus its
monitoring efforts and assist the Ministry in achieving the goals of the cooperative agreement.

NON-FEDERAL AUDIT REPORTS

The GPS (section II-115) states that foreign recipients are subject to the same audit requirements
as commercial organizations specified in 45 CFR § 74.26(d). Pursuant to 45 CFR § 74.26(d)(1),
recipients that are commercial organizations are required to file one of the following types of
audits: a financial-related audit or an audit that meets the requirements of OMB Circular A-133.

OMB Circular A-133 states that audits must be completed annually and submitted for review
within the earlier of 30 days after receipt of the auditor’s report or 9 months after the end of the
organization’s FY, unless a longer period of time is agreed to by the agency (subpart B §__.220
and subpart C §__.320).

Although the Ministry had A-133 audits covering the calendar years of 2011 and 2012, it did not
submit its annual financial audit reports to NEAR in accordance with the award requirements.
Because the Ministry did not submit the audit reports, NEAR was unable to monitor recipient
findings.

INADEQUATE POLICIES AND PROCEDURES

The Ministry did not have adequate financial and programmatic policies and procedures in place
to ensure that it:

    •   withdrew and disbursed only funds approved and unrestricted in the NOA,




Audit of the Ethiopian Ministry of Health PEPFAR Funds (A-04-13-04015)                                 8
    •   maintained adequate supporting documentation for allowable expenditures and cash
        advances under the cooperative agreement and accurately reported costs on its FFR,

    •   maintained an accurate record of VAT transactions paid and sought reimbursement from
        the Ethiopian Government,

    •   obtained and evaluated contract bids and proposals in accordance with applicable
        requirements,

    •   prepared an adequately supported progress report, and

    •   submitted its annual financial audit reports to NEAR as required by Federal regulations.

                                       RECOMMENDATIONS

We recommend that the Ministry:

    •   refund to CDC $294,654 in unallowable expenditures;

    •   submit an amended FFR for the budget period of the cooperative agreement that we
        reviewed;

    •   work with CDC to resolve whether VAT was an allowable expenditure under the
        cooperative agreement; and

    •   develop and implement policies and procedures for:
           o obtaining approval from CDC to release funds restricted by the NOA prior to
               withdrawing or disbursing funds,

            o maintaining adequate supporting documentation for expenditures and cash
              advances of Federal funds and accomplishments included in the progress report,

            o advancing funds only for activities related to the cooperative agreement,

            o accounting for VAT paid and seeking reimbursement from the Ethiopian
              Government,

            o expending cooperative agreement funds only for allowed activities,

            o obtaining contract bids when required,

            o reconciling FFRs to the accounting records before submission, and

            o submitting its annual financial audit report in a timely manner to the applicable
              United States agency.



Audit of the Ethiopian Ministry of Health PEPFAR Funds (A-04-13-04015)                             9
   FEDERAL DEMOCRATIC REPUBLIC OF ETHIOPIA, MINISTRY OF HEALTH,
       COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

Ministry of Health Comments

In comments on our draft report, Ministry officials did not concur with our first recommendation,
partially concurred with our last recommendation, and fully concurred with our remaining
recommendations. They also described corrective actions they had taken or planned to take to
implement them.

In comments on our first recommendation to refund $294,654 in unallowable expenditures,
Ministry officials stated that CDC had released almost all restrictions on the funds as of
August 27, 2012, and that these funds had been used for implementation of programmatic
activities. Ministry officials also addressed the findings related to this recommendation. They
said that sample items 8 and 27, bank charges, were not subject to restrictions and that they had
misidentified some sampled expenditures as “HMIS TOT” funds rather than as “CIS supportive
supervision” funds. In addition, Ministry officials stated that, while not made available to us
during the audit, documentation to support the Statement of Expenditure was maintained at the
local government entities. Finally, the Ministry concurred with our findings for unallowable
expenditures not related to the cooperative agreement and a no-bid contract.

In comments on our last recommendation to develop and implement additional policies and
procedures, the Ministry concurred with all but one item. Specifically, Ministry officials did not
agree that they should create a policy for maintaining adequate supporting documentation for
expenditures and cash advances of Federal funds and accomplishments included in the progress
report. For the other policies and procedures that we recommended the Ministry implement,
Ministry officials described actions that they had taken or planned to take and provided written
procedures and Ministry policies to support their concurrence with our recommendations.

In comments on our finding that some accomplishments in the progress report were not
supported, Ministry officials stated that it was unclear which of the activities we considered
partially supported or unsupported and requested an opportunity to provide additional
documentation to support these activities.

The Ministry’s comments are included as Appendix E. However, we did not include the
attachments because they were too voluminous.

Office of Inspector General Response

Financial Management

With respect to the Ministry’s nonconcurrence with our first recommendation, we acknowledge
that CDC lifted almost all of the funding restrictions in a revised NOA dated August 27, 2012.
However, the Ministry expended funds that were restricted during the first 11 months of the
cooperative agreement, and $1.8 million of the award remained restricted at the end of the year.
Regarding sample items 8 and 27, which Ministry officials stated were not subject to restrictions,



Audit of the Ethiopian Ministry of Health PEPFAR Funds (A-04-13-04015)                           10
we did not determine sample item 8 to be unallowable (see Appendix D), and we determined that
sample item 27 was unallowable because this bank charge was associated with the Ministry’s $2-
million withdrawal of restricted funds. Although Ministry officials stated that they erroneously
identified support for some sample expenditures as “HMIS” rather than as “CIS,” both types of
funds were restricted and not available for use.

Pertaining to the Ministry’s partial concurrence with our last recommendation to develop and
implement additional policies and procedures, we acknowledge that Ministry officials said that
documentation to support the Statement of Expenditure was maintained at the local government
entities. We provided the Ministry opportunities to provide missing documentation while
conducting our review, as well as in its response to our draft report. However, the Ministry did
not do so. The Uniform Administrative Requirements for Grants and Cooperative Agreements at
45 CFR §§ 92.20(b)(6) and 92.42(a) require the Ministry to maintain supporting documentation
for expenditures and cash advances of Federal funds and for accomplishments included in the
progress report. This includes support for the Statement of Expenditure.

Program Management

While conducting our review at the Ministry, we shared details of our findings with Ministry
officials, including the specific activities we considered to be partially supported or unsupported.
We provided the Ministry opportunities at that time, as well as in its response to our draft report,
to provide the missing supporting documentation. However, the Ministry did not do so.

On the basis of our review of the explanations and additional documentation provided with the
Ministry’s comments, we maintain that our findings and recommendations are valid and continue
to recommend that the Ministry refund $294,654 in unallowable expenditures.




Audit of the Ethiopian Ministry of Health PEPFAR Funds (A-04-13-04015)                            11
       APPENDIX A: RELATED OFFICE OF INSPECTOR GENERAL REPORTS

  AUDITS OF THE PRESIDENT’S EMERGENCY PLAN FOR AIDS RELIEF FUNDS

                        Report Title                                Report Number    Date Issued
   The Republic of Zambia, Ministry of Health, Did Not              A-04-13-04004      6/2014
   Always Manage President’s Emergency Plan for AIDS
   Relief Funds or Meet Program Goals in Accordance
   With Award Requirements
   The University of Zambia School of Medicine Did Not               A-04-13-04010     4/2014
   Always Manage President’s Emergency Plan for AIDS
   Relief Funds or Meet Program Goals in Accordance
   With Award Requirements
   The University Teaching Hospital Generally Managed                A-04-13-04005     3/2014
   President’s Emergency Plan for AIDS Relief Funds and
   Met Program Goals in Accordance With Award
   Requirements
   Aurum Institute for Health Research Did Not Always                A-05-12-00021     8/2013
   Manage President’s Emergency Plan for AIDS Relief
   Funds or Meet Program Goals in Accordance With
   Award Requirements
   The South African National Department of Health Did               A-05-12-00022     8/2013
   Not Always Manage President’s Emergency Plan for
   AIDS Relief Funds or Meet Program Goals in
   Accordance With Award Requirements
   National Health Laboratory Service Did Not Always                 A-05-12-00024     8/2013
   Manage the President’s Emergency Plan for AIDS
   Relief Funds or Meet Program Goals in Accordance
   With Award Requirements
   The Southern African Catholic Bishops’ Conference                 A-05-12-00023     7/2013
   AIDS Office Generally Managed President’s
   Emergency Plan for AIDS Relief Funds and Met
   Program Goals in Accordance With Award
   Requirements
   The Vietnam Administration for HIV/AIDS Control Did               A-06-11-00057     6/2013
   Not Always Manage the President’s Emergency Plan
   for AIDS Relief Funds or Meet Program Goals in
   Accordance With Award Requirements
   The Centers for Disease Control and Prevention’s                  A-04-12-04023     4/2013
   Vietnam Office Generally Monitored Recipients’ Use of
   the President’s Emergency Plan for AIDS Relief Funds
   Potentia Namibia Recruitment Consultancy Generally                A-06-11-00056     4/2013
   Managed the President’s Emergency Plan for AIDS
   Relief Funds and Met Program Goals in Accordance
   With Award Requirements



Audit of the Ethiopian Ministry of Health PEPFAR Funds (A-04-13-04015)                             12
                         Report Title                               Report Number    Date Issued
   The Centers for Disease Control and Prevention’s                 A-04-12-04022      2/2013
   South Africa Office Did Not Always Properly Monitor
   Recipients’ Use of the President’s Emergency Plan for
   AIDS Relief Funds
   The Republic of Namibia Ministry of Health and Social             A-04-12-04019     1/2013
   Services Did Not Always Manage the President’s
   Emergency Plan for AIDS Relief Funds or Meet
   Program Goals in Accordance With Award
   Requirements
   The Centers for Disease Control and Prevention’s                  A-04-12-04020    11/2012
   Namibia Office Did Not Always Properly Monitor
   Recipients’ Use of the President’s Emergency Plan for
   AIDS Relief Funds
   Review of the Centers for Disease Control and                     A-04-10-04006     6/2011
   Prevention’s Oversight of the President’s Emergency
   Plan for AIDS Relief Funds for Fiscal Years 2007
   Through 2009




Audit of the Ethiopian Ministry of Health PEPFAR Funds (A-04-13-04015)                             13
                     APPENDIX B: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our audit covered the budget period from September 30, 2011, through September 29, 2012.
This budget period was the fourth year of a 5-year cooperative agreement. During the budget
period under review, CDC awarded the Ministry $4,447,034.

We limited our review of internal controls to those related to our objective. We conducted
fieldwork at the Ministry’s office in Addis Ababa, Ethiopia, from August 6 through August 29,
2013.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed relevant Federal laws and regulations, HHS guidance, the FOA, the NOA, and
        the Ministry’s policies and procedures;

    •   interviewed and conducted meetings with CDC Ethiopia officials to determine the extent
        of the technical assistance they provided to the Ministry;

    •   interviewed and conducted meetings with Ministry officials to determine their policies
        and procedures related to financial accounting and reporting and to program goals and
        accomplishments;

    •   reconciled the Ministry’s FFR 9 to its accounting records for the budget period under
        review;

    •   selected and reviewed a judgmental sample of 30 financial transactions with expenditures
        totaling $717,823 (including VAT) from the grant award of $4,447,034 and included
        types of expenditures such as:

             o transactions that may have included restricted funds,

             o transactions that may have included unallowable VAT on purchases,

             o transactions that may not have been related to the cooperative agreement, and


9
  OMB, through the Federal Register on December 7, 2007 (72 FR 69248), established the Government-wide
Federal Financial Report (FFR). This report consolidated into a single report the current Financial Status Report
(SF–269 and SF–269A) and the Federal Cash Transactions Report (SF–272 and SF–272A). The information
collected through the FFR is required by Federal agencies to aid in monitoring their grant funds.



Audit of the Ethiopian Ministry of Health PEPFAR Funds (A-04-13-04015)                                              14
            o transactions for purchases that may have required bids;

    •   selected and reviewed a judgmental sample of 11 cash advances totaling $2,186,885 that
        the Ministry made to local government entities;

    •   compared the accomplishments described in the Ministry’s annual progress report to the
        cooperative agreement’s goals;

    •   reviewed all 20 accomplishments described in the Ministry’s annual progress report and
        reviewed supporting documentation to determine whether the Ministry met program
        goals; and

    •   reviewed the Ministry’s annual financial audit report.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Audit of the Ethiopian Ministry of Health PEPFAR Funds (A-04-13-04015)                        15
                          APPENDIX C: FEDERAL REQUIREMENTS

45 CFR § 74.26(d)

Recipients that are commercial organizations are required to file one of the following types of
audits: a financial-related audit or an audit that meets the requirements of OMB Circular A-133.

45 CFR § 92.20(b)

        (b) The financial management systems of other grantees and subgrantees must
        meet the following standards:

        (1) Financial reporting. Accurate, current, and complete disclosure of the
        financial results of financially assisted activities must be made in accordance with
        the financial reporting requirements of the grant or subgrant.

        (2) Accounting records. Grantees and subgrantees must maintain records which
        adequately identify the source and application of funds provided for financially-
        assisted activities ….

        (3) Internal control. Effective control and accountability must be maintained for
        all grant and subgrant cash, real and personal property, and other assets. Grantees
        and subgrantees must adequately safeguard all such property and must assure that
        it is used solely for authorized purposes.

        (6) Source documentation. Accounting records must be supported by such source
        documentation as cancelled checks, paid bills, payrolls, time and attendance
        records, contract and subgrant award documents, etc.

45 CFR § 92.26(a)

        Grantees and subgrantees are responsible for obtaining audits in accordance with
        the Single Audit Act Amendments of 1996 (31 U.S.C. 7501–7507) and revised
        OMB Circular A–133, “Audits of States, Local Governments, and Non-Profit
        Organizations.”

45 CFR § 92.36(c)(1)

“All procurement transactions will be conducted in a manner providing full and open
competition consistent with the standards of § 92.36.”

45 CFR § 92.36(c)(3)(ii)

        (3) Grantees will have written selection procedures for procurement transactions.
        These procedures will ensure that all solicitations: (ii) identify all requirements




Audit of the Ethiopian Ministry of Health PEPFAR Funds (A-04-13-04015)                         16
        which the offerors must fulfill and all other factors to be used in evaluating bids
        or proposals.

45 CFR § 92.40(b)(2)(i)

        (2) Performance reports will contain, for each grant, brief information on the
        following: (i) A comparison of actual accomplishments to the objectives
        established for the period. Where the output of the project can be quantified, a
        computation of the cost per unit of output may be required if that information will
        be useful.

45 CFR § 92.41(b)

        (1) Form. Grantees will use Standard Form 269 or 269A, Financial Status Report,
        to report the status of funds for all nonconstruction grants and for construction
        grants when required in accordance with § 92.41(e)(2)(iii).

        (4) Due date. When reports are required on a quarterly or semiannual basis, they
        will be due 30 days after the reporting period. When required on an annual basis,
        they will be due 90 days after the grant year. Final reports will be due 90 days
        after the expiration or termination of grant support.

45 CFR § 92.42(a)

Grantees are required to retain financial and programmatic records and supporting documents,
both those required by the grant agreement and those “otherwise reasonably considered as
pertinent to program regulations or the grant agreement” for three years from the submission date
of the final expenditure report for the funding period.

OMB Circular A-133

Audits must be completed annually and submitted for review within the earlier of 30 days after
receipt of the auditor’s report or 9 months after the end of the organization’s FY, unless a longer
period of time is agreed to by the agency (subpart B §__.220 and subpart C §__.320).

HHS, Grants Policy Statement, January 1, 2007, Audit Requirements, Section II-49

Prior approval is required for deviation from the award terms and conditions, including
undertaking any activities disapproved or restricted as a condition of the award.

HHS, Grants Policy Statement, January 1, 2007, Audit Requirements, Section II-114

“Customs and import duties. These costs, which include consular fees, customs surtax,
value-added taxes, and other related charges, are unallowable under foreign grants and
domestic grants with foreign components.”




Audit of the Ethiopian Ministry of Health PEPFAR Funds (A-04-13-04015)                            17
HHS, Grants Policy Statement, January 1, 2007, Audit Requirements, Section II-115

Foreign recipients are subject to the same audit requirements as for-profit organizations
(specified in 45 CFR 74.26(d)).




Audit of the Ethiopian Ministry of Health PEPFAR Funds (A-04-13-04015)                      18
                                APPENDIX D: SAMPLE RESULTS

                                                    Not
                                                  Related                 Value of
    Sample     Restricted       Lack of            to the     No-Bid       Sample      Unallowable
      No.       Funds        Documentation        Award      Contract    Transaction    Amount
    1              X                 X                                       $9,467        $9,467
    2              X                 X                                          627           627
    3              X                 X                                          458           458
    4              X                                                        136,340        40,902
    5              X                                                        132,057        39,617
    6              X                 X                                       16,380        16,380
    7                                                X                        2,018         2,018
    8                                                                         1,287             0
    9                                                            X           20,473        17,802
    10             X                                                        314,331        94,299
    11                                               X                        1,934         1,682
    12             X                                                          2,292         2,292
    13             X                                                         10,648         9,259
    14             X                                                         27,602        27,602
    15             X                                                          2,786         2,423
    16             X                                                            313           313
    17             X                                                            313           313
    18             X                                                             21            21
    19             X                 X                                        2,353         2,353
    20             X                 X                                           98            98
    21             X                 X                                       12,404        12,404
    22             X                 X                                        1,159         1,159
    23             X                 X                                          198           198
    24             X                                                            259           259
    25             X                                                            259           259
    26             X                                                          5,635         5,635
    27             X                                                          5,000         5,000
    28             X                                                            368           368
    29             X                                                            393           393
    30             X                                                         10,350         1,053
    Total          26                9               2            1        $717,823      $294,654




Audit of the Ethiopian Ministry of Health PEPFAR Funds (A-04-13-04015)                               19
             APPENDIX E: FEDERAL DEMOCRATIC REPUBLIC OF ETHIOPIA,
                          MINISTRY OF HEALTH, COMMENTS

rtv rr·k.P b..Pvt:-ttP .t:. tfPh&-II..PP                                              Federal Democratic Republic of


                                                                      •
                  6 'r·nlth                                                                      Ethiopia
        rm, s·    TII.:P ~ ~.111;C                                                          Ministry of Health

                                                                                       <#> "}
                                                                                                       23 JUL 2014
                                                                                       Date
                                                                                       +-1'c     zrnro 8 I4F Ju 1
                                                                                       Ref No.

     Department of Health and Human Services

     Office of Inspector General

     Attn . To: Gloria l. Jarmon

     (Deputy Inspector General for Audit service)



                        Subject: FMOH Management response Qn tb.!'! ci_raft Q~ audit             find ing~


                                               Eor ~ye.ars ended 29 S_eptember 2012


     Dear Jarmon,

     We have received and checked the draft OIG auditor's draft audit findings and recommendations on
     the audit of t he accounts of Center for Disease Control HIV/TB Project for the years ended 29
     September 2012 .

     Pleased f ind enclosed here with FMOH response organized in three parts: financial management,
     Additional issues, recommendation on the draft audit findings for the years 29 September, 2012.




     Yours Sincerely


         ~
    .A:o:rir Aman Hagos (Dr.)
       State Mini$ter of Health
              H.E Office of Mister 

              State M inister (Operation) 

              Financial Resource Mobiliza tion Directorate ( FRM) 

              Finance and Procurement Directorate 





®   251-(0)11 -5517011             Fax 251 -(0)11-5519366                 E-mail:moh@ethionet.et             1:81 1234
    251 -(0)11 -5515425                251-(0) 11 -5159657                Web site: www.moh .gov.et              Addis Ababa, ".:
    251 -(0)11 -5159869                251 -(0)11-5524549                                                        Ethiopia / "' ­
    ~tJJJOJ)/fii1?tJ~lb~lan.Ministl1l oflkalth PEPFAR Funds f A-04-13-04015)                                      20
                                   -,,fm?rr uu6\o l),l)m- fNn Y.·o~n. ·l!'f'C .r.'l'4·fl·
                                              In reply Please Refer to our Ref. No.
           Financial Transactions
           Of the 30 transactions tota ling $717,823 that we reviewed, 1 transact ion totaling $1,287 was allowable, 21
DE         transactions totaling $87,616 were una llowable, and 8 transact ions totaling $628,920 were partially unallowable
           ($421 ,882 was allowable and $207,038 was not).
o·
           1.1. Restricted Fund s
               According to the NOA dated August 25, 2011, CDC restricted funds in several cost categories totaling
               $4,352,991 . For 26 transactions, the Ministry spent funds on activities restricted by the NOA. For example, the
               Ministry expended fun ds related to the National Health Management Information System, HIV testing and
               counseling, and parliamentary training activities that CDC had restricted.


               Response
               The Federal Ministry of Health (FMOH) do not accepts these findings. We admit there was confusion about the
               timing of the restriction lifting given the delays in its processing and the receipt of other revised NOAs during
               this period. The interest of the FMOH was implementation of the programmatic activities as per the work
               plan; and with no intent of violating U.SG rules and regulations.


               Even if there was an administrative restriction at the beginning of the budget year, almost all restrictions were
               lifted and revised notice of award was received dated 08/27/2012. Besides, as we recognized that HMIS TOT
               was restricted this was not part of our expenditure statement for the budget year. Most of the expenses
               incurs were for fuel and travel which exactly related with CIS supportive supervision. We would like to note
               that our source documents erroneously stated to be HM IS TOT, instead of CIS TOT. As stated below out of the
               total selected 30 samples 26 are reported as restricted, however all restriction was lifted as per the revised
               notice of award dated 08/27/2012 except HMIS TOT requested budget.


               The FMOH has developed SOPs and tool to track funding restrictions and restriction lifting to ensure restricted
               fund is not drawn dawn. Tpe SOP and tool, effectives as of October 1, 2013 are shown as Annex 1 and 2.


               Since this audit finding, restricted funds have not been draw dawn. The following table (Tab le 1) shows you
               the sample transaction analysis.


               Tab le 1 Amounts restricted and their status after August 27/2012

                Sample           Restricted              Value of     Unallowable                   Description                       Status as of
                  No.             Funds                   Sample       Amount                                                         August 2012
                                                        Transaction
                    1                     X                9,467         9,467      Afar SoE for HIV/ AIDS ST I/TB                 Restriction     lifted
                    2                     X                  627          627       Afar SoE for HIV/AIDS STI/TB                   Restriction     lifted
                  3                       X                  458          4 58      Afar SoE for HIV/AIDS ST I/TB                  Restr ictio n   lifted
                  4'                      X               136,340       40,902      HMIS Printing                                  Restriction     Li fted
                   5                      X               132,057       39,617      HMIS Printing                                  Restriction     Lifted
                  6                       X                16,380       16,380      Somali SoE for HI V/A IDS ST IJTB              Restriction     Lifted
                  10                      X               314,331       94,299      HMIS Printing                                  Restriction     Lifted
                  12                      X                 2,292        2,292      HIV STI/TB Supervision Fuel                    Restriction     Lifted
                  13                      X                10,648        9,259      HIV Exposed Infant Printing                    Restriction     Lifted
                 .~·-                     X              27,602.00     27,602.00    Fuel for HMIS and CIS supportive supervision   Restriction     Lifted

            ' ~!,!!..!_~
       -I ~
       •

     ' "6
                ~
               ~.y
               1\~·
                            ~
                                .J


                                     ,
                                         \   .~
                                         J.. ~~ 

                                                                         .



            'AUdil,~ofthe""Et .                  cin lvlinistry ofHealth PEPFAR Funds (A-04-13-04015) 
                                 21
                  ...
                        -       ~            ,
                 .._...,.._.
                 15        X         2,786.00       2,423.00     HMIS related stationary procurem en t           Restriction Lifted
                 16        X            313            313       HIV TOT fo r Extension Worker                   Restriction Lifted
                 17        X            313            313       HI VTOT for Extension Worker                    Restriction Lifted
                 18        X           21.00          21.00      Hotel a r rangeme nt for cont. application      Restriction Lifted
                 19        X           2,353          2,353      Gambela SoE For HIV STI/TB                      Restriction lifted
                 20        X            98              98       Gambela SoE For HIV STI/TB                      Restriction lifted
                 21        X          12,404         12,404      Gam bela SoE For HIV STI/TB                     Restriction lifted
                 22        X           1.159         1,159       Gambela SoE For HIV STI/TB                      Restriction lifted
                 23        X            198            198       Ga mbela SoE For HIV STI/TB                     Res triction lifted
                 24        X          25 9.00        259.00      HMIS Supportive Supervis ion                    Restrictio n Lifted
                 25        X          259.00         259.00      HMIS Supportive Supervision                     Restriction Lifted
                 26        X           5,635         5,635       HIV STI/TB Training                             Re striction Lifted
                 27        X           5,000         5,000       Ba nk Service Cha rge                           Restriction Lifted
                 28        X            368            368       HI V STI/TB Perdiem                             Restriction Lifted
                 29        X          393.00         393.00      CIS Trave l cost                                Restriction Lifted
                 30        X         10,3 50.00     1,053.00     Fuel for HM IS and CIS supportive supervision   Restriction Lifted


          In summary samples leveled as :
                  • 	 Sample # 1, 2, 3, 4, 5, 6, 10, 12, 13, 14, 15, 16, 17, 18, 19, 20, 21, 22, 23, 24, 25, 26, 27, 28, 29, and
                      sa mple # 30 expenditures incurred for the pu rpose of the coo pera t ive agreement into consideration
                      and all rest rictio ns as per August 2011 was lifted as per NOA as of 27 August 2012 .
                  • 	 Sample # 14, 15, 18, 24, 25, 29, and sample # 30 are expenditures incurred for the purpose of the
                      cooperative agreement, and all re lated w it h CIS supportive supervision as stated on table 1 above. It
                      was erroneously stated that program activity implementers always wrote budget source as HMIS TOT
                      though it was other HM IS/CIS related activity.
                  • 	 Sample # 8 and 27 are incurred for bank service charge and not subject to restrictions .


      1.2 Supporting Documentation
          For nine t ransactions, the Ministry was unable to provide adequate documentation to support the
          transactions. To meet its PEPFAR pr-ogram goals, the Ministry advanced gra nt funds to local government
          entities. The entities re port ed their expenditures of PEPFAR funds to the Ministry using a Statement of
          Expenditure. The statement contained expenditures listed by cost categories, such as stationery, fuel, per
          diem, refreshments, etc.; however, the Ministry could not provide any other documentation to support the
          transactions.

          Response
          The Ministry does not accept these findings . As per the Government of Ethiopia financial regulation/policy,
          original supporting documents are kept at Regional Health Bureau (RHB) custody when activities are
          conducted with cash advances. We recognize that these were not ma de available to the OIG at the time of
          the audit. As other auditors FMOH is dedicated to make ready documents at the regionat zonal, and coul d
          also be at the woreda level at their own custody on ly.


          The FMOH collect s the Statement of Expenditure with supporting document refe rence number, date of
          expenditure, invoice number, etc. The FMOH Finance and procurement department team members visit the
           RHBs to cross-examine documents and validate the SOEs submitted by RHBs. For example, sample financial
           monitoring report, monitoring Checklist and Fin ancial monitoring checklist is at tached as Annex 3. The
           following table analyses sample transactions related with regional advances "no supporting documents"



       ~
      ·:( ~
      . ~\ 

       ~UdiJ ofthe                                                                                                   22
         ~ ..;            .
                      Ethioiir:f Nfinistry ofHealth PEPFAR Funds (A-04-1 3-0401 5) 


----------~~-~"~~             .
     Table 2 Amount related SOE (Statement of Expenditure)


Sample    Lack of   Value of        Unallowable    Description                     Status as of Augus t 2012
No.       Docume    Sample          Amount
          ntation   Transaction
1         X         9,467            9,467         Afar SoE for HIV/AIDS STI/TB    Source documents are available at the
                                                                                   regions custody
2         X         627              627           Afar So E for HIV/AIDS STI/TB   Source documents a re available at the
                                                                                   regions custody

3         X         458              458           Afar SoE for HIV/AIDS STljTB    Source documents are available at the
                                                                                   regions custody

6         X         16,380          16,380         Somali SoE fo r HIV/AIDS        Source documents are available at the
                                                   STI/TB                          regions custody

19        X         2,353            2,353         Gambela SoE For HIV STI/TB      Source documents are available at the
                                                                                   regions custody

20        X         98               98            Gam bela SoE For HIV STI/TB     Source documents are available at the
                                                                                   regions custody

21        X         12,404           12,404        Gambela SoE For HIV STI/TB      Source documents are available at the
                                                                                   regions custody

22        X         1,159           1,159          Gam bela SoE For HIV STI/TB     Source documents are available at the
                                                                                   regions custody

23        X         198              198           Ga mbela SoE For HIV STI/ TB    Source documents are available at the
                                              .                                    regions custody



1.3 Not Related to the Cooperative Agreement
     For two transactions, the Ministry made expenditures for a.ctivities not related to the PEPFAR cooperative
     agreement.


     Response
     The FMOH accepts this finding. We wish to clarify that the two transactions in question were not expenditures
     for activities outside of the CDC CoAg, but were reco rding errors. These transactions have been corrected on
     both t he accounting reco rds and on the FFR. Please see the attached t he corrected copies of the FFR and
     genera l ledger shown as Annexes 4 and 5.


     The FMOH have a system of verify ing trial balances on a regular basis (every 60 days). In addition, the FMOH
     has opened a separate bank account for the CDC grants to ensure separate processing and recording.


1.4 No-Bid Contract
     One transaction was for a contrac~ to broadcast information on t uberculosis prevention . The Ministry
     contracted with a broadcast company without obtaining bids from any other companies.




                             istry ojHeaithPEPFAR Funds (A-04-13-04015)                                 23
       Response
       FMOH accept this finding. This was a onetime event that the ministry will correct it as soon as possible. The
       ministry conducts all procurements of goods and services based it s decision on the government procurement
       po licy and procedures as shown on annex. As per the government policy it is clearly stated that at least three
       price quotations are required and the one with the lowest price is awarded.

       As on sample # 9, the Ministry did not obtain bids because the broadcast company se lected was the on ly
       broadcaster which can provide the widest coverage to address the community at large. So th is decision also
       was as per the government procurement directives.


       In add ition , Fana Broadcast is the first FM radio which has wider coverage especially in all cities . Beside there
       was an assessment made that Fana Broadcast has very large number of listener in cities. It is also known that
       prevalence of HIV/TB co infection was very high at cities and towns than rural villages . However FMOH now
       understand to review its stand to bid procurement of air time once again .


2. Addit ionallssue
   2.1. Federal Fi nanci al Report
       The Ministry submitted FFR to CDC th'at did not agree with the Ministry's accou nt ing records. The Ministry did
       not reconcile its genera l ledger to t he report it used to create the FFR. As a resu lt, t he M inistry underreported
       both expenditures and cash disbursements on the FFR for the cooperative agreement by $7,625 and $2,097,
       respectively.


       ResP.onse
       The FMOH accepts this finding . The FFR has been corrected using the corrected and reconciled accounting
       records. The FFR and reconciled accounting reco rds are shown as Annexes 4 and 5.

       The FMOH has developed a SOP to ensure that the FFR is prepared based on the accounting records (general
       ledger). This SOP, effective as of October 2013 is shown as Annex 6.


   2.2. W it hdrawal of Restricted Funds
       According to the NOAs that CDC issued, on ly $94,043 of funding was unrestricted and available for the
       M inist ry's use prior to May 2012. Duri ng Ma rch 2012, the Ministry withdrew $2 million from t he Payment
       Managemen t System. Of that, $1,905,957 was restrict ed at the time of withdrawal.


       Response
       The FMOH accepts this finding and has taken action to ensure that no future drawdown of restricted funds
       occurs. As mentioned under 1.1, the FMOH has developed an SOP and tool to track funding restrictions and
       restriction lifting to ensure restricted funds are not drawn dawn . Please reference Annexes 1 and 2.


       Sinct; this audit finding , restricted funds have not been draw dawn.




                             nistry ofHealth PEPFAR Funds (A-04-13-04015)                                  24
   To help meet its PEPFAR program goa ls, the Ministry made cash advances to local government entities. In
   addition to our financial transactions review, we reviewed 11 of these cash advances totaling $2,186,885 that
   the Ministry made to local government entities. Of these 11 advances, 2 that totaled $240,895 were for
   allowable activities and 9 that totaled $1,945,990 were not.

   In the NOA dated August 25, 2.011, CDC restricted f unds in several cost categories . These restricted funds
   totaled $4,352,991. The Ministry made seven cash advances for activities restricted by the NOA re lated to the
   National Health Management Information System, HIV testing and counseling, and health worker experience
   sharing.

   Response 

   FMOH accepts the finding. The response we provided on 1.1 and 2.2 above could also be applied for this. 

   Besides This finding reflects three separat e issues, addressed below: 



   1. 	 The advance of restricted funds. FMOH wishes to clarify that the unallowability of the cash advances, with
       two exceptions noted be low, were related to the fund restriction, not that funds were used for expenses
       other than PEPFAR/CDC CoAg activities included in the project plan and budget. Please note the actions
       described under 1.1 to ensure t hat FMOH does not drawdown restrict ed f unds and the reference
       documents shown as Annexes 1 and 2.


   2. 	 Advance to the Ethiopian Health and Nutrition Research Institute for the Avian Influenza (EHNRI): This
       advance was the resu lt of a recording erro r due to confusion between two CoAgs - name ly FMOH
       HIV/AIDS and Avian Influenza- using one accoun t (B0705G1) in t he Payment Management System (PMS).
       The FMOH has estab lished a separate subsidiary ledge r for each CoAg and corrected the error. The
       corrected documents are attached as Annex 7.           FMOH understands that the FFR will need further
       correction to adjust for this adjustment in accounts and can provide a revised FFR within two weeks.


       The Avian Influenza CoAg has now been shifted to EHNRI directly and is managed in a separate bank
       account to avert any such confusion .


   3 . 	 Two advances made to PFSA:       The second advance to PFSA was made to meet additional funding
       requirement for the procurement of 14 digital x-ray machines. The procurement of the x-ray machines
                                                                                                        51
       was stopped given the funding restric t ions. The restriction was lifted in August 2012 with the 1 advance
       of funds . As PFSA did not require. the 2nd advance as expected, the check was returned to FMOH . FMOH
       voided the check and reversed its account on October 24, 2013. Copies of the voided check, transaction
       detail and reversal documentation is attached as Annex 8.


2.4. Expendit ures for Value-Added Tax Potentially Unallowable
    During the audit period, CDC Ethiopia had established a process for recipients to follow to obtain VAT
    reimbursement from the Ethiopian Revenue and Customs Authority.

    Although we identified $57,881 of VAT associated with our judgmentally selected expenditure transactions ,
    we were unable to determin e the total amount of VAT the Ministry paid during our audit period because the




                          . try ofHealth PEPFAR Funds (A-04-13-04015)                            25
   for pu rchases under 5,000 Et hiopian bi rr but did not tra ck or account for these VAT payments. The M inistry
   withheld and recorded VAT amount s over 5,000 Ethiopian birr in a VAT payab le account and wou ld
   periodically remit this to t he Governme nt. However, t he M in istry did not consistently record VAT amounts to
   the payable acco unt .


   Response
   The FMOH accepts this finding. The FMOH has submitted a request for this VAT reimbursement directly to the
   Ministry of Finance and Economic Development (MoFED).                This request sent on June 24/ 2014 for
   reimbursement of USD 106,804.10 is attached as Annex 09.             In the future the FMOH will request VAT
   reimbursement on a yearly basis so as to use the VAT reimbursement advantage provided by the government.


   The FMOH is now accurate ly recording and tracking all VAT payments. Please see attached copy of ledgers
   showing detail of VAT payments for the audit period and subsequent funding periods. These are shown as
   Annex 10.


2.5. Progress Report Included Unsupported Accomplishments
   All 20 accomplishment s in the M ini st ry's progress report were related to the goals of the cooperative
   agreement. Of these 20 accomplishments, 9 were fully supported, 8 were partia lly supported, and 3 were not
   supported.


   Response
   It is not clear to the FMOH which of the reported activities the OIG considers to be partially supported or
   unsupported. The FMOH would appreciate an opportunity to provide additional supporting documentation for
   these activities once we hav€ a better understanding.


   For example, FMOH does not find reference to the implementation of back-up generators in the progress
   report. The procurement of generators was restricted and as such was not completed. The FMOH requests the
   OIG to clarify the source document which noted the activity as completed. There are two training activities for
   supervisors rep orted, however it's not clear for which the OIG felt documentation was inadequate. As such,
   additional clarification is requested.


   To substantia t e the extended broadcast agreement, please find attached a copy of the contract with FANA
   Broadcasting. This is shown as Annex 11.


   The FMOH has endorsed a directive regarding the provision of trainings and conducting workshops, wh ich
   provides emphasis to produce training reports on timely basis that includes all supporting documents such as
   attendances, and registration sheets . A copy of the Directive is attached as Annex 12.


2 .6. NON-FEDERAL AUDIT REPORTS
   Although the Ministry had A-133 audits covering the ca lendar years of 2011 and 2012, it did not submi t its
   annual financ ial audit reports t o NEAR in accorda nce with t he aw ard req uirements . Beca use t he Ministry did




                              ofHealth PEPFAR Funds ~-04-13-04015)                                   26
       Respon se
      The FMOH agrees with this finding. Audits are up to date and audit reports for 2011, 2012 and 2013 will be
      submitted to NEAR. Please see attached scanned copy of recent aud it report submitted shown as Annex 13.


      The FMOH was unclear on this requ irement and had been submitting audit reports to CDC-Ethiopia. It is now
      clear that official reporting is to NEAR; th is w ill be closely adhered to in the future.


   2.7.1NADEQUATE POLICIESAND PROCEDURES


           • 	 FMOH has developed SOP not to w ithdraw funds restricted effective as of October 1, 2013 .
           • 	 FMOH has developed SOP for regularly recording and requesting for reimbursement then after
               effective as of October 1, 2010.
           • 	 Government of Ethiopia has used procurement directives which enable us to evaluate contract bids
               among at least three suppliers effective as of June 2010.
           • 	 FMOH will prepare and submit SO P for establishing a syst em of preparing an adequately supported
               and well documented progress report .



3. 	 Recommendations


   3.1 . Refund to CDC $294,654 in unal lowable expenditures
      The FMOH do not concurs with this recommendation. The majority of the una llowable expenditures are
       related to funding restrictions . It should be noted that the restrictions were lifted in August 2012 and that
       funds were used for timely implement ation of program activities as per the work plan. FMOH recognizes the
       error made and has taken steps to ensure compliance to USG ru les and regulations regarding fund ing
       restrictions. FMOH would respectfully request the OIG to reconsider thei r position on these expenditures.


       Due to the reasons mentioned above 1.1, 1.2 and below, we are not expected to refund back the full amount
       stated here.
   3.2. Submit an amended FFR for t he budget period of the cooperative agreement that we reviewed
      The FMOH concurs w ith this recommendation, and has amended the FFR which is attached as Annex 4.
       However, the FMOH will need to further amend the FFR to incorporate the reversal of the cash advance to
       EHNRI referenced under section 1.3. FMO H wi ll submit a final revised FFR within two weeks of this submission.


   3.3. Work w ith CDC to resolve w hether VAT was an allowable expe nditure unde r t he coope rative agreement.
      The FMOH concurs with this recommendat ion . FMOH recognizes that in the NOA it is clearly stated that VAT
       payment is not allowed. Accordingly, the FMOH has requested reimbursement of VAT paid from MoFED. A
       copy of the letter is attached as Annex 9. FMOH will ensure time ly VAT reimbursement requests in the future.


   3.4. Deve lop and im plement pol icies and proced ures fo r




                                  ojHealthPEPFAR Funds (A-04-13-04015)                                27
1. 	 Ob t aini ng ap proval from CDC t o relea se fund s restrict ed by t he NOA prior to withdrawi ng or disbu rsing
     funds
The FMOH concurs with this recommendation and understands the need for restriction lifting through a
revised NOA prior to drawdown of restricted funds. A SOP and tracking too l have been developed to ensure
that the status of funding restrictions are tracked and use of restricted funds averted. These are attached as
Annexes 1 and 2.


The FMOH will develop a SOP outlining the processes for requesting restriction lifting from CDC.


2. 	 Mainta ining adequate supporting documen tation for expenditures and cash advances of Federal funds
     and accompl ishments included in t he prog ress rep ort


The FMOH do not concurs with this recommendation. The FMOH co llects the Statement of Expenditure with
supporting document reference number, date of expenditure, invoice number, etc. The FMOH Finance and
procurement department team members visit the RHBs to cross-examine documents and validate the SOEs
submitted by RHBs. For example, sample financial monitoring report, monitoring Checklist and Financial
monito ri ng check list is attached as Annex 3.


3.   Advancing f unds only for act ivit ies re lated to the cooperative agreement 

The FMOH concurs w ith this recommendation. The FMOH have a system of verifying trial balances on a 

regular basis (every 60 days). In addition, the FMOH has opened a separate bank account for the CDC grants 

to ensure separate processing and reco rding. 



4.   Accounting for VAT paid and seeking reimburse ment from the Ethiopia n Government 

The FMOH concurs wi th this recommendation. The FMOH has submitted a request for this VAT 

reimbursement directly to the Ministry of Finance and Economic Development (MoFED) . 



5.   Expen ding cooperative agreement fun ds on ly for al lowed activities 

The FMOH concurs with this recommendation. The FMOH have a system of verifying trial balances on a 

regular basis (every 60 days) . In addition, the FMOH has opened a separate bank account for the CDC grants 

to ensure separate processing and recording . Please see the attached the corrected copies of the FFR and 

general ledger shown as Annexes 4 and 5. 



6.   Obtaining contract bids when requi red 

The FMOH concurs with this recommendation . Government of Ethiopia procurement directives mandate the 

process of obtaining contract bids as shown on Annex 14 



7.   Reconci ling FFRs to the accounting records prior to submission 

The FMOH concurs with this      recom~endation.      Currently expenditure reported on the FFR is subject to be 

reconci led and FFR attached with accounting ledgers at the back of the report and easy for reconciliation . 

(Please see the annex# 6 referred for SOP developed and effective as of October 2013) . 





                       nistry ofHealth PEPFAR Funds (A-04-13-04015)                                 28
8. Submitting its annual financial audit report in a timely manner to the applicable United States agency
The FMOH concurs with this recommendat ion. FMOH will strive to submit audit report on time as stated on
the USG rules and regulations. The audit is up to date but there was confusion on for whom to send the report
for. Attached is Audit report for year 03 budget periods (Annex 13).




                    nistry ofHealth PEPFAR Fwlds (A-04-13-04015)                                   29
